April 10, 2009

SUSAN C. PLONKEY
VICE PRESIDENT, SALES

SUBJECT: Final Audit Report – Automated Flats Sorting Machine 100 Images: Security
         of Sensitive Customer Data (Report Number DA-AR-09-008)

We initiated this U.S. Postal Service Office of Inspector General (OIG) audit (Project
Number 09YG018PM000) based on an investigative referral that alleged the Automated
Flats Sorting Machine (AFSM) 100 cameras were lifting images from Internal Revenue
Service (IRS) mailings and displaying social security numbers (SSNs). This condition
would increase the risk to U.S. Postal Service information security. Our objective was
to determine whether the AFSM 100 cameras are revealing taxpayers’ SSNs during the
image lifting process. See Appendix A for additional information about this audit.

Conclusion

The OIG evaluated random samples of mailpiece images the AFSM 100 cameras
captured. None of these images showed information beyond the envelopes and cover
page. Since these random images were not IRS-specific, it confirmed to us that the
concern was specific to the IRS. To test this theory, we simulated mail preparation and
processed pseudo mailings the IRS provided. In all cases when contents shifted in
envelope windows, SSNs located on the secondary page were visible and were
captured by the AFSM 100 cameras.

The IRS has the obligation to ensure SSNs cannot be seen in mailings. The Postal
Service's obligation is to ensure that SSNs inadvertently recorded by automated
processing equipment remain confidential. Based on the safeguards the Postal Service
has in place to protect electronic records, we concluded the Postal Service has fulfilled
its Privacy Act obligation. See Appendix B for our detailed analysis of this issue.
Automated Flats Sorting Machines 100:                                       DA-AR-09-008
 Security of Sensitive Customer Data


Management Corrective Action

The OIG, in coordination with the Postal Service’s Business Service Network (BSN),
discussed the finding with IRS Media and Publications representatives on March 20,
2009. In response to our discussion draft report, BSN managers began working with
the IRS on March 30, 2009, to correct the exposure of SSNs in its mailings. Thus, this
report contains no recommendations.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, Director,
Engineering, or me at (703) 248-2100.


    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Walter O’Tormey
    Tammy L. Edwards
    Angelic Burns
    Katherine S. Banks




                                           2
Automated Flats Sorting Machines 100:                                                             DA-AR-09-008
 Security of Sensitive Customer Data


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service processes flat mail1 in two stages: mail preparation and automation
processing. During mail preparation flat mailpieces are culled and stacked in a
container to facilitate automation processing. Subsequently, automated feeders agitate
flat mail the AFSM 100 is processing. When a mailpiece address is unreadable, an
AFSM 100 built-in camera takes an image of the mailpiece and sends it to a remote
encoding center, where a person reads it, types the correct address, and sends it back
to the processing plant.

While the SSN was first introduced as a device for tracking contributions to the Social
Security system, government entities and the private sector have expanded its use to
track many other records. As early as the 1970s, concerns regarding increased use of
SSNs by both government and private entities prompted studies and subsequent
congressional action limiting government use of SSNs. When Congress passed the
Privacy Act of 1974, it took the first statutory step toward establishing a federal policy
limiting compulsory divulgence of SSNs. In its report accompanying the Privacy Act, the
Senate Committee on Government Operations stated that the extensive use of the SSN
as a universal identifier was “one of the most serious manifestations of privacy concerns
in the nation.” More recent enactments by Congress have provided for increased
confidentiality of SSNs in public records.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our audit objective was to determine whether the AFSM 100 cameras are revealing
taxpayers’ SSNs during the image lifting process. If true, the Postal Service is at risk of
not complying with laws designed to protect SSNs. Illustration 1 displays the image
OIG Special Agents referred to the Office of Audit.




1
 Flats are mailpieces that exceed one of the maximum dimensions of letter-size mail. Large envelopes, newspapers,
catalogs, circulars, and magazines are examples of flats.




                                                       3
Automated Flats Sorting Machines 100:                                                 DA-AR-09-008
 Security of Sensitive Customer Data

Illustration 1 – Image Referred

             Mailpiece Referred
                                          IRS mailing that generated the audit referral.
                                          It should be noted the exposure is limited to
                   SSN                    the envelope window. Taxpayer information
                 Exposure                 has been sanitized in this image.




To accomplish our objective, we conducted interviews with Postal Service management
and IRS officials. We worked with management to collect and review random images
from AFSM 100 machines, in order to determine whether the AFSM 100 camera was
reading information beyond the cover page. Additionally, we collected IRS mailing
samples for testing on AFSM 100 machines in a production environment at two
separate processing facilities. The purpose of this test was to determine whether the
allegation was, in fact, was mailer-specific and confined to the envelope window area.

We conducted this performance audit from February through April 2009 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with the Postal Service BSN manager and IRS Media and Publications
representatives on March 20, 2009, and included their comments where appropriate.

PRIOR AUDIT COVERAGE

We did not identify any prior OIG audits or reviews related to the objective of this audit.




                                             4
Automated Flats Sorting Machines 100:                                                                     DA-AR-09-008
 Security of Sensitive Customer Data


                                 APPENDIX B: DETAILED ANALYSIS

SSN Exposure

Our observation and review of 100 images taken at random from AFSM 100 machines
located at the Merrifield Processing and Distribution Center (P&DC) did not indicate that
machine cameras were capturing information beyond the face of flat envelopes.
Because the random images we reviewed were not mailings the IRS presented, we
concluded that the AFSM 100 camera was not capturing sensitive information on a wide
scale, and that the imaged mailpiece in question, displayed in Illustration 1, was a
mailer-specific condition.

Therefore, in conjunction with Postal Service Engineering, we requested and tested
pseudo mailpieces from the IRS2 to validate whether the AFSM 100 machine could read
their mailings beyond the cover page. SSNs were exposed on all five sampled
mailpieces processed at the Merrifield P&DC and on three of the five mailpieces
processed at the Southern Maryland P&DC. SSNs were transparent in the envelope
window area only.

Illustration 2 shows the before and after effect of our test of IRS mailpieces. The results
corroborated that IRS mailpieces of similar design displayed sensitive information from
the cover page after the contents had shifted during mail processing, and therefore the
SSN exposure was due to the mailpiece design.




2
 All IRS-tested mailpieces contained the same print quality, density, print location, and contrast ratio as the referred
mailpiece.




                                                            5
Automated Flats Sorting Machines 100:                                                    DA-AR-09-008
 Security of Sensitive Customer Data



Illustration 2 – Before and After Images of Processed IRS Mailpieces

    IRS Mailpiece Before Handling and                     IRS Mailpiece After Processing
               Processing




                                                                        SSN
                                                                      Exposure




The image above represents a sample IRS        The image above shows the content in the window area
mailing. It shows the content of the window    after simulated handling and processing on the AFSM
area prior to handling and processing on the   100. Note that the pseudo SSN is now visible in the
AFSM 100. Note that the barcode is visible     window area of the envelope. It should be noted that in
and the pseudo SSN is not visible in the       some cases the SSN was also visible to the naked eye
window area of the envelope.                   before processing on the AFSM 100.




                                                  6
Automated Flats Sorting Machines 100:                                                                 DA-AR-09-008
 Security of Sensitive Customer Data



Postal Service Obligation for Mailpiece Information Security

Federal and state governments have taken steps to limit compulsory divulgence of
SSNs. Congress passed the Privacy Act of 1974 and on November 6, 2000, the
President signed into law the “Social Security Number Confidentiality Act of 2000”
(Confidentiality Act of 2000), codified at 31 U.S.C. § 3327(b). In addition, a number of
states have enacted statutes that restrict the use or display of SSNs in various contexts.
For example, the state of Michigan enacted the Social Security Number Privacy Act, Act
454, of 2004. This act prohibited the public display of all or more than four sequential
digits of the SSN.

We reviewed the Privacy Act of 1974 and the Confidentiality Act of 2000 and other
related laws to determine the obligation of the Postal Service to maintain the
confidentiality of SSNs for mailings. We concluded that the obligation to ensure SSN
confidentiality ultimately rests with the agency that places the item into the mail stream.
However, the Postal Service has an obligation to ensure that any personally identifiable
information, including SSNs, that is inadvertently recorded by automated processing
equipment remains confidential.

The database housing images would be considered a "system of records" for the
purposes of the Privacy Act. We found the process used by the Postal Service to store
these images to be in compliance with Postal Service policy.3 Therefore, the Postal
Service has fulfilled its Privacy Act obligation to safeguard any inadvertent collection of
personally identifiable information like SSNs.




3
  Handbook AS-353, Guide to Privacy, the Freedom of Information Act, and Records Management, September 2005.
Section 800 of the Appendix states that confidential records, such as SSNs, are to be stored in areas where access is
limited to authorized personnel.




                                                         7
